XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET
SACRAMENTO, CA 95814

Telephone: (916) 210-6269
E-Mail: Sam.Siegel@doj.ca.gov

August 25, 2020
Via Electronic Filing System and First Class Mail
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

California, et al., v. Texas, et al., No. 19-840
Texas, et al., v. California, et al., No. 19-1019

Dear Mr. Harris:
I represent the state petitioners in No. 19-840, who are respondents in
No. 19-1019. The Court granted the petitions in these cases on March 2, 2020.
The petition in 19-840 presented three questions, including whether “the minimum
coverage provision is severable from the rest of the ACA.” The cross-petition in
No. 19-1019 (filed by the state and individual respondents in 19-840, who were
plaintiffs in the district court) presented the following questions: “1. Whether the
unconstitutional individual mandate to purchase minimum essential coverage is
severable from the remainder of the ACA. 2. Whether the district court properly
declared the ACA invalid in its entirety and unenforceable anywhere.” On April 2,
the Court granted the parties’ joint request to extend the time to file the briefs on
the merits, which had proposed a four-stage briefing schedule. The Court ordered
that, in the final stage, cross-petitioners could “file a reply brief limited to
Question 2 presented by the petition for certiorari in No. 19-1019.”
On August 18, 2020 the state and individual cross-petitioners in No. 19-1019
submitted separate reply briefs. Both briefs acknowledge that the Court’s April 2
order requires the brief to be “‘limited to Question 2 presented by the petition for
certiorari in No. 19-1019.’” Tex. Reply I; see Ind. Reply i. But both briefs contain
two separate argument sections, one of which addresses the severability issue
raised by Question 1 of the cross-petition. Tex. Reply 3-11; see Ind. Reply 3-11. The

August 25, 2020
Page 2
state petitioners in No. 19-840 submit this letter to alert the Court that the scope of
those briefs appears to be inconsistent with the Court’s April 2 order.
Sincerely,
s/ Samuel P. Siegel
SAMUEL P. SIEGEL
Deputy Solicitor General
For
cc:

XAVIER BECERRA
Attorney General

Douglas N. Letter
General Counsel
U.S. House of Representatives
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
Kyle D. Hawkins
Solicitor General
Office of the Attorney General
State of Texas
Robert Henneke
Texas Public Policy Foundation
Center for the American Future

